                                                 March 25, 2014


The Honorable Osvaldo L. Gratac6s
Inspector General
Export-Import Bank of the United States
811 Vermont Ave, NW
Washington, DC 20571

Dear Mr. Gratac6s:

       We are writing to invite you to testify before the Subcommittee on Financial and Contracting
Oversight at a hearing entitled, "Oversight of Small Agencies." The hearing will be held on 'nmrsday~
April 10, 2014 at 10:00 A.M. in Room SD-342 of the Dirksen Senate Office Building.

        Vigorous oversight by an independent inspector general is one of the federal government's most
important tools to prevent and detect waste, fraud, and abuse of taxpayer dollars. The purpose of the
hearing is to review the processes and mechanisms by which small agencies and other federal entities
without statutory inspectors general receive oversight. The hearing will examine the process by which
small agencies contract with independent inspectors general for services. The hearing will also explore
the role of the Council of Inspectors General for Integrity and Efficiency (CIGIE) in ensuring that small
agencies have adequate oversight. Finally, the hearing will examine potential legislative actions to
improve the oversight of small agencies.

       Your testimony should discuss your experience in standing up a new inspector general office,
including developing an oversight relationship with the Export-Import Bank, creating a work plan, and
any administrative challenges you encountered during the process. Your testimony should also address
the unique challenges faced by smaller inspector general offices and best practices for efficient and
comprehensive oversight of smaller agencies. In addition, your testimony should address how smaller
inspector general offices participate in CIGIE.

        The Subcommittee requests that you summarize your testimony in 5 minutes, although a longer
written statement may be submitted for the official record. This will allow adequate time for you to
engage in questions and answers with members of the Subcommittee. Subcommittee rules require that
your testimony be submitted by no later than 10:00 A.M. on Tuesday April 8, 2014. Please send an
electronic copy of your written statement and a brief one page biography to Subcommittee Clerk, Kelsey
Stroud, at Kelsey Stroud@hsgac.senate.gov.

       The jurisdiction of the Subcommittee on Contracting Oversight is set fo11h in Senate Rule XXV
clause l(k); Senate Resolution 445 section 101 (108 111 Congress); and Senate Resolution 64 {113th
Congress).
The Honorable Osvaldo L. Gratac6s
March 25, 2014
Page2

       We look forward to your participation. Please contact Sarah Garcia with Senator McCaskill's
Subcommittee staff at (202) 224-1014 or Mike Howell with Senator Johnson's Subcommittee staff at
(202) 228-0653 with any questions.

                                              Sincerely,




       Claire McCaskill                                              n
       Chainnan                                            Ranking Member
       Subcommittee on Financial and                       Subcommittee on Financial and
       Contracting Oversight                               Contracting Oversight
                   Statement of the Honorable Osvaldo Luis Gratacós

                                        Inspector General

                          Export-Import Bank of the United States

                                             before the

                                       United States Senate

                Committee on Homeland Security and Government Affairs

                    Subcommittee on Financial & Contracting Oversight

                                  April 10, 2014 at 10:00 am


Good morning Madam Chair, Ranking Member Johnson, and distinguished members of the
Subcommittee.

Thank you for the invitation and opportunity to testify before you today about the oversight of
small federal agencies, specifically, the challenges small agency Offices of Inspector General (OIGs)
face when fulfilling their missions. As the Inspector General at the Export-Import Bank (Ex-Im
Bank), I have experienced some of these challenges first hand. During my testimony, I would like
to summarize Ex-Im Bank’s mission, present a short history of the Ex-Im Bank OIG, and describe
some of the challenges this office has faced since its inception. Before I continue, I would like to
thank the Almighty for this opportunity, my family, and the members of the Ex-Im OIG staff for
their hard work.

I. Ex-Im Bank

Ex-Im Bank is the official export credit agency (ECA) of the United States. It supports the financing
of U.S. goods and services in international markets, turning export opportunities into actual sales
that help U.S. companies of all sizes create and maintain jobs in the United States. Ex-Im Bank has
programs to address short, medium, and long-term needs of exporters; assuming the credit and
country risks that the private sector is unable or unwilling to accept. Ex-Im Bank also helps U.S.

                                                                                              1 of 5
exporters remain competitive by countering the export financing provided by foreign
governments on behalf of foreign companies. At the same time, Ex-Im Bank must safeguard
taxpayer resources by determining that there is a reasonable likelihood of repayment with respect
to each of its transactions.

In fiscal years 2012 and 2013, Ex-Im Bank approved over $60 billion in export transactions - this
is in addition to $32 billion in FY 2011. Ex-Im Bank’s portfolio has increased by 94.8% since 2008
($58.4 billion in FY 2008 vs. $113.8 billion in FY 2013). In the current Charter, Ex-Im Bank has
authority to approve up to $140 billion in export transactions.

II. Ex-Im OIG

Ex-Im Bank OIG was statutorily created in 20021, but the Inspector General did not officially take
office until August 2007. The OIG has achieved noticeable success in performing its statutory
duties. Specifically, since FY 2009, the OIG has issued over forty (40) audit, inspections and special
reports containing one hundred and seventy (170) findings, recommendations, and suggestions for
improving Ex-Im Bank programs and operations. Our investigative efforts have resulted in a
number of law enforcement actions, including: over seventy (70) indictments and informations;
forty-five (45) convictions; forty (40) guilty pleas entered in court; over four hundred (400)
management referrals for enhanced due diligence actions; and approximately $300 million in court
imposed restitution, forfeitures, repayments, and cost savings efforts. All of this has been
accomplished with a very modest budget starting at approximately $1 million and gradually rising
to about $5 million in FY 2014.

III. Operational Challenges

All of the OIGs face operational challenges in fulfilling their mission. These challenges are more
pronounced in smaller agency settings. In order for the OIGs to effectively detect fraud, waste,
abuse and to enhance their ability to improve efficiency of agency operations, small agency OIGs
need the proper administrative support and funding. Because of limited resources, small agency



1   Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 22 (June 14, 2002).


                                                                                               2 of 5
OIGs often must rely on the agencies they oversee to provide essential support functions like
information technology, personnel management, and financial management. As a small agency
OIG, I have experienced first-hand some of the limitations, challenges and frustrations that
accompany the dynamics of small agency oversight. Some of the most important observations
and challenges related to OIG operations, as I experienced them as part of my role at Ex-Im Bank,
are:

    Information Technology (IT) Support. Ex-Im Bank still uses an ineffective, inefficient, and
       fragmented IT platform and infrastructure composed of several legacy systems and
       databases. These systems and databases do not effectively and accurately interface with
       each other – compromising data integrity, creating duplicative information, and creating
       unreliable files. Further, these systems make data mining burdensome and time
       consuming. Since 2012, Ex-Im Bank is engaging in an IT infrastructure modernization
       effort focused on replacing legacy systems and improving quality and access of its data.

       In essence, when requesting computer acquisition and IT support in order to perform its
       mission, OIGs place some burden on the hosting agency. Inevitably, this interaction leads
       to a dependency relationship between agency senior management and the OIG. More
       troublesome, however, is the potential access to OIG systems, emails, and databases that
       that agency senior IT managers may have.

    Human Resources Support. One of the most important factors for the OIGs in maintaining
       their independence is the ability to hire their staff without obstruction or undue influence
       from the hosting agency. Given the size of small OIGs, OIGs have to rely on the agency for
       HR support. By slowing down the hiring process, OIGs are hindered in their ability to
       effectively bring talent onboard to pursue audits, investigations or inspections of
       susceptible areas. In my experience, HR support clearly impairs OIG independence and has
       a serious effect on the effectiveness of the office. During my time at Ex-Im Bank, we have
       experienced delays of six to ninth months before hiring OIG staff. This is more significant
       during times when OIG and senior management have competing hiring strategies.




                                                                                             3 of 5
    Office Space. In my experience, access to adequate space, as required by the IG Act, has
      proven to be one of the most limiting and hindering factors in our ability to build
      capabilities needed to provide adequate oversight of Ex-Im Bank. Office space is limited
      in our current building which has limited our growth. Further, funds appropriated are
      not enough to hire subject matter experts while covering rent for adequate space. For the
      first time since our office started, the President’s budget for fiscal year 2015 contains
      funds to address our space limitation. Adequate space is crucial to recruit qualified staff,
      build up moral, to improve productivity and to develop synergies within the team. When
      managing space limitation issues, support from the head of the agency is crucial.

    Access to Information. As a new OIG, one of our challenges was to understand how the
      Ex-Im Bank maintained the information that we needed to conduct our audits,
      inspections, and investigations, and negotiate timely access to that information.
      Although the IG Act clearly provides that the Inspector General has access to all books
      and records of the agency, agencies that have not previously had an Inspector General
      may not have a culture of sharing information. It is essential that agency leadership
      emphasize that agency employees must cooperate with information requests from the
      OIG. Although many of the issues regarding access to information within the Ex-Im Bank
      have been resolved, we still encounter issues in receiving information from outside
      parties involved in Bank transactions, and have recommended that the Bank’s contracts
      and agreements specify the rights of the OIG to access information from outside parties
      related to Bank transactions.

IV. Possible Solutions

   This Subcommittee is meeting today to discuss possible solutions to some of the challenges
   previously described. Although it is difficult to find a “one-size-fits-all” solution to all of these
   challenges, this Subcommittee should consider several possible alternatives or a combination
   thereof. Specifically,

       Create one OIG to provide oversight services to agencies with similar missions.

       Develop shared services agreement between OIGs.

                                                                                                4 of 5
        Centralize administrative support services for different small agencies OIGs through
          larger OIGs, the Office of Personnel Management, or the Council of the Inspectors
          General on Integrity and Efficiency.

        Place smaller agencies without OIGs under the purview of larger OIGs.

V. Conclusion

All of the OIGs in the federal government face similar challenges when fulfilling their oversight
mandate. At small agencies OIGs theses challenges are particularly burdensome and more
pronounced. Rest assured that my fellow IGs are honored to represent American taxpayers and
take pride on the work they do every day. Nonetheless, additional support in addressing
challenges would only enhance their ability to provide more effective oversight.

Madam Chair, Ranking Member Johnson, and members of this honorable Subcommittee, thank you
once again for the opportunity to testify before you today. I would be pleased to respond to any
questions you may have.




                                                                                            5 of 5
